Dep-ent                    of Health and Human Services
         OFFICE OF
   INSPECTOR GENERAL




   EARLY EXPERIENCES WITH

CLINICAL l?RACTICE GUIDELWS
         SPONSO~D BY
THE	 AGENCY FOR HEAL~    C­
     POLICY AND RESEARCH
                               CASE STUDIES





                         @ S.ERVICE$
                   ~-+                 ~$q
               +

          ~w                                 JUNE   GIBBS BROWN
           .
          .<
           s                                 Inspector   General
           z               ~
             ~+>                                    September 19%
              ‘%dya
               >                                    OEI-01-94-00251

                         OFFICE OF INSPECTOR GENEIWL

  The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
  amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
  programs as well as the health and welfare of beneficiaries semxi by those programs. This
  statutory mission is carried out through a nationwide network of audits, investigations, and
  inspections conducted by three OIG operating components: the Office of Audit Senfices, the
  OflIce of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
  the Secretary of HHS of program and management problems and recommends courses to
  correct them.

                            OFFICE OF AUDIT SERVICES

 The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
 conducting audits with its own audit resources or by overseeing audit work done by others.
 Audits examine the performance of HHS programs and/or its grantees and contractors in
 carrying out their respective responsibilities and are intended to provide independent
 assessments of HHS programs and operations in order to reduce waste, abuse, and
 mismanagement and to promote economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HIM programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civd money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION                 AND INSPEC130NS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of Mark R. Yessian, Ph.D., Regional Inspector
General, and Martha B. Kvaal, Deputy Regional Inspector General, Boston Region, Office of
Evaluation and Inspections. Participating in this project were the following people:

Boston                                                                          Headquarters

Dana L. Miller, fioject Leader                              Ann O’Connor, ProgramSpecialist
Russell W. Hereford, Ph.D.
Dep-ent              of Health and Human Services�
         OFFICE OF
   INSPECTOR GENERAL




  EARLY EXPERIENCES WITH

CL~CAL    PRAC~CE GUIDEL~S
         SPONSORED BY
THE	 AGENCY FOR HEALTH C­
     POLICY AND RESEARCH
                               CASE STUDIES





                             SERWCE$
                    JA
               ~+                      ~mf
           +

          *W                                 JUNE   GIBBS BROWN
           k
          :z                                 Inspector   General
           ‘3            ~
             %.
                                    September 1995
              ‘%’d~~
               >                                    OEI-01-94-002S1

                           TABLE                     OF CONTENTS

                                                                                                                        PAGE

INTRODUCllON          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..1


CAsES~~             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..2


    HosPrrALs
     1:	 ARural, County-Owned Hospital’s Use

         of the Pressure U1cer Prevention Guideline                        . . . . . . . . . . . . . . . . . . . . . . . ...2


     2    ARural, Non-Profit Hospital’s Use

          of the Pressure Ulcer Prevention Guideline                       . . . . . . . . . . . . . . . . . . . . . . . ...4

                                                                                                 .

     3:	 ARural, County-Omed Hospital’s Use

         of the Pressure Ulcer Prevention Guideline                        . . . . . . . . . . . . . . . . . . . . . . . ...6


     4	   A Rural, Private, Non-Profit Hospital’s Use

          of the Pressure Ulcer Prevention and Pain Management                               Guidelines          . . . . . . . 9


     5:   A Rural Hospital’s Use of the Pain Management                           Guideline        . . . . . . . . . . . . . 11


     6    A Mid-Sized Town Hospital’s Use of the Pain Management                                  Guideline          . . . . 13


    7     A Rural, County-Owned Hospital’s Use of the Incontinence                                Guideline          . . . . 15


   NURSING HOMES
    8:	 A Rural, Proprietary Nursing Home’s Use

        of the Pressure LTlcer Prevention Guideline                       . . . . . . . . . . . . . . . . . . . . . . . . . 18


    9	    A Large Nursing Home’s Use

          of the Pressure Ulcer Prevention Guideline                      . . . . . . . , . . . . . . . . . . . . . . . . . 20


    10	 A Skilled-Nursing Home’s Use

        of the Pressure Ulcer Prevention and Incontinence                           Guidelines        . . . . . . . . . . . 22


    11:	 A Small-Tom, Proprietary Nursing Home’s Use
         of the Incontinence Guideline . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..”24


    12:	 A Large Health Maintenance Organization’s Use

         of the Cataract Guideline . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...26


    13: A Consortium’s Use of the Pressure Ulcer Prevention Guideline                                    . . . . . . . . . 28

                          INTRODUCTION

 We have conducted an inspection that focuses on the early experiences ‘of healthcare

 organizations that have used the clinical practice guidelines sponsored by the Agency

 for Health Care Policy and Research (AHCPR). In that inspection, we examined the

 extent to which healthcare organizations have used AHCPR guidelines, the ways in

 which they have used them, and any obstacles they have encountered in the process.


To collect information for that inspection, we sent a mail survey to 380 healthcare

organizations: 150 randomly selected nursing homes, 150 randomly selected non-

teaching hospitals with no more than 100 patient beds, and all 80 of the health

maintenance organizations with staff-model components. We received responses horn

64 percent of the organizations surveyed.


We present our findings in a companion report entitled “Clinical Practice Guidelines

Sponsored by the Agency for Heaith Care Policy and Research: Eariy Experiences in

Clinical Settings,” (OE1-01-94-00250).


In this report, we offer supplementary case descriptions of the ways in which

healthcare organizations have used the AHCPR guidelines. These descriptions were

developed from interviews that we conducted with clinician-managers in organizations

that responded to our survey.


These descriptions are more detailed than those provided in our companion report.

We report the information as organizations reported it to us, without further review or

confirmation on our part. We present the case descriptions, without additional

analysis, as background information for the Agency to use as it chooses.

  I c%SE”l:          A RUR&   COUNTY-OWNED HOSPITAL’S
              USE OF THE PRESSURE ULCER PREVENTION GUIDELINE                                  I
  ORGANTZA’fYONPROHLE

  This is the oniy hospital within a 35-mile radius. It is located in a county with a
  population of just under 10,000. Seventy percent of its patient population is geriatric.

  The hospital, which has an elected governing board, is a 49-bed, acute-care facility
  with 39 in-service beds and a few swing beds. It has 6 family-practice physicians,
  1 general surgeon, 1 physician assistant, and 1 family-nurse practitioner. The hospital
  offers 6 specialty clinics several times each month.

 MOTIVATION FOR USING THE GUIDELINE

  Shortly after the hospital received its copy of the pressure ulcer guideline from
 AHCPR, a patient with stage-4 pressure ulcers came into the hospital from a long­
 terrn care facility. The plight of this patient, who subsequently died, raised staff
 interest in better understanding effective means of treating pressure uicers. At that
 point. the hospital did not systematically assess patient risk for pressure ulcers. The
 nursing quality-assurance committee identified the need for an effective assessment
 tool and protocol, and its members set out in search of information.

 WAYS OF USING THE GUIDELINE

New policy and procedures. In the fall of 1993, hospital staff attended meetings on
pressure ulcers at different sites around the State. The staff also formed a task force
to review relevant information that it gathered from professional journals. It rewrote
its protocol for nursing assessment of pressure ulcers and incorporated the A.HCPR­
recommended Norton assessment scale into its protocol. The hospital also established
an algorithm for care of patients at increased risk of pressure uicers; this algorithm
was derived from the AHCPR guideline.

 Use with clinicians. The hospital distributed the pressure ulcer guideline to all clinical
staff. .+dditional copies are kept at the nursing station and in the hospital library. A
skin-care product company provided additional information and training for staff. The
company held all-day training sessions for nurses on prevention and treatment of
pressure ulcers and it held luncheon lectures for physicians. It demonstrated care
techniques on the floor. Physicians and nurses trained one another to perform the
recommended procedures. In addition, pressure ulcer prevention and care have been
addressed in monthly staff meetings.

Use with patienis. The hospital has not used the AHCPR patient guides, but intends
to do so as part of patient teaching with those of its at-risk patients who are able to
understand the materiai.


                                            2

 ~h4PIJANCE AND EVALUATION

The hospital quality-assurance reviews address pressure ulcers; patient care in the
swing-bed unit is reviewed each week. Originally, feedback was provided to staff as a
group. Now, when failure to comply with the new hospital policies and procedures is
identified, clinicians are addressed on an individual basis.

The hospital has not yet conducted an evaluation of the effects of guideline use. The
smail patient population has limited the hospital’s capacity to perform a statistically
sound assessment. A representative noted, however, that hospital patients seem to
have been faring better with regard to pressure ulcers. He added that the guidelines
have been helpful in terms of both achieving better patient outcomes and
standardizing clinicai practice.

Clay County Hospital
617 Liberty Street
Clay Center, Kansas 67432

Telephone:   9136322144




                                        J
  I CXE    2:.     A RUIU& NON-PROFIT HOSPITAL’S USE OF
                 TEE PRESSURE ULCER PREVENTION GUIDELINE

  ORGANIZATION PROFILE


 This rural, non-profit hospital has 74 beds and approximately 225 admissions each

 month. It also has two long-term care skilled-nursing facilities with a total of 170 beds

 and a residential-care facility with 45 beds. The hospital also has a large home-health

 program and a hospice. The hospital manages a health maintenance organization

 (HMO) as one of its departments.       In addition, the hospital owns and manages 14

 physician clinics, inciuding 6 rural health clinics. The hospital employs approximately

 700 staff, including 111 registered nurses and 28 licensed practical nurses. The

 hospital empioys 27 physicians and has about 50 consulting physicians.


 The HMO serves approximately 1900 members. About 60 percent of the hospital

 patients are Medicare beneficiaries; 25 percent are covered by Medicaid; 1S percent

 are seif-pay, and a few are covered by private insurance.


 MOTIVATION FOR USINGTHE GUIDELINE


 The hospital’s director of quality improvement leamed about the pressure ulcer

 guideline from the hospital’s chief executive officer and from a meeting she attended

 in 1993. The hospital reviewed the guideline when it standardized the assessment and

 treatment of pressure ulcers across all components of the organization.


 WAYS OF USING THE GUIDELINE


New poiicy and procedures. The hospital used information relevant for its practices to

revise its policy and procedures in the winter of 1993/94.


Use by clinicians. The director of quality improvement explained the AHCPR

guideline and the new policy and procedures at regularly scheduled staff meetings.

She gave copies of the guideline to physicians, directors of nursing, and nurse

managers. She also sent out a hospital-wide notice announcing the availability of all of

the AHCPR guidelines that had been published to date. In response to this memo,

the social services department requested a copy of the guideline on depression. The

hospital education department has held in-service educational sessions about the

pressure ulcer guideline for nurses and nursing assistants.


The hospital used the guideline--and specifically the Norton and Braden scales it

references--to develop a new pressure ulcer risk-assessment tool for the nurses. The

hospital instituted a new risk-assessment form for use in its acute-care unit. The risk

assessment was also incorporated into the form used to assess all patients for

admission and on a daily basis thereafter.





                                           4

  Usewith patients. ~eorgantiation      hasnotdistfibuted   thepressure ulcer guideline as
  a regular part of patient education. The director of quality improvement believes that
  hospitalized patients who develop pressure ulcers are too ill to understand them.
  Nonetheless, the pressure ulcer guideline is used to educate patients and their families
  in the hospital’s home-health sefice.

  OBSTACLES‘K) USE

 The hospital interpreted the pressure ulcer guideline as recommending that patients
 be turned evew hour, and the staff have found that this goal is difficult to achieve in a
 long-term care-facility such as theirs. The hospital policy is that patients be turned
 every two hours.

 The hospital considers the AHCPR guideline to be general and adaptable to local
 conditions. Adaptation, however, has been an expensive and time-consuming process.

 The hospital had planned to use the acute pain management guideline as well as the
 pressure ulcer guideline. Facility-wide use of the pain management guideline was put
 on hold when it became apparent that each of the organization’s many components
 had developed its own pain assessment and treatment procedures and did not want to
 change systems.

 COMPLIANCEAND EVALUATION

Recently, the hospital assigned a nurse on the medical/surgical floor to spend one shift
each week evaluating pressure ulcers to ensure that care plans are appropriate and
are being implemented. In the long-term care unit, assessment of pressure ulcers is
conducted on a monthly basis.

 The hospital has not measured clinicians’ compliance with the guideline, but it has
measured their compliance with the new policy and procedures. The hospital has
measured incidence of pressure uicers as one of its quality-improvement indicators,
and it has developed a quarterly report on pressure uicer incidence. The director of
quality improvement has also used the report to identify patient characteristics that
correlate with pressure ulcers. The hospital expects the report will show a downward
trend in the incidence of pressure ulcers, especially in the long-term care unit.

Citizens Memorial Hospital
1500 North Oakland
Bolivar, Missouri 65613

Telephone:   4173260553




                                          5

  I CASE 3:       A RUR&  COUNTY-OWNED HOSPITAL’S
          USE OF’THE PRESSURE ULCER PREVENTION GUIDELINE                                        1

  ORGANIZATION PROFILE


  This county-owned hospital in a rural, farming community is licensed for 42 beds

  (including 8 swing beds); 34 of these are now occupied. The hospitaI provides

  generai-medicai, surgical, pediatric, and obstetric services, and it has an intensive-care

  unit.


 The hospital is staffed by 25 registered nurses and 6 general-practice physicians, 3 of

 whom have been with the hospital for over thirty years and 3 of whom have joined

 during the past 5 years. In addition, a radiologist visits the hospital 4 days a wee& and

 a pathologist and a general surgeon each visit the hospital 1 day a week. The

 hospital’s home health program is staffed by 55 nurses and nursing aides, who conduct

 about 2500 home visits a month.


 Approximately   60 percent of the patients are Medicare beneficiaries.


 MOTIVATION FOR USINGTHE GUIDELINE


 The hospital has used three of the AHCPR clinical practice guidelines: acute pain

 management, pressure ulcer prevention, and urinary incontinence. This discussion

 addresses the hospital’s use of the pressure ulcer guideline.


One hospital physician has been the medical director at a nearby nursing home that

was cited by State sumeyors for unsatisfactory care of pressure ulcers. The State

asked the hospital to help the nursing home improve its performance. In so doing,

both the hospital and the nursing home began to use the pressure ulcer guideline.


Even though the hospital had launched a skin-integrity quality-improvement initiative

several years earlier, the hospital had made little progress. The biggest problem was

that its pressure uicer indicators were calibrated such that they failed to register

improvement. In addition, each physician had his own way of managing pressure

ulcers; the hospital lacked a consistent approach to the problem.


Recognizing these problems, the nursing director wanted to develop new poiicy and

procedures for the hospital’s treatment of pressure ulcers. Her goals were to decrease

the incidence, severity, and duration of pressure ulcers and to increase consistency

among staff in treating the condition. Reducing the costs of treating pressure ulcers

was not a specified goal, although the director suspects that costs have gone down due

to less variation in the supplies purchased.





                                             6

  In seeking information from which to build new policy and procedures, the director

  reviewed materials from neighboring hospitals and looked for a public standard for

  measuring skin integrity.


  WAYS OF USING THE GUIDELINE


 Use with clinicians. The nursing director distributed handouts describing the new

 policy and procedures and explaining pressure ulcer assessment and treatment. The

 hospital held informal skills-training sessions for staff about pressure ulcer care. This

 skills training addressed, among other things, the use of a camera in documenting

 pressure ulcers. To keep staff from failing back into their old routines, the director

 has held review sessions at staff meetings.


 The hospital changed its clinician-patient encounter forms, which are now used on a

 daily basis. The hospital also expanded the options listed on its laboratory culture-

 order form for pressure ulcers, but these changes were not made in response to the

 AHCPR guideline.


 Use with patients. For the past year, the hospital has used the pressure ulcer

 guideline in its home-health classes to educate patients and their families about ways

 to avoid and heal pressure ulcers. It has not distributed the pressure ulcer guideline

 to hospital patients because those most at risk for pressure ulcers lack the capacity to

 understand the material and/or to act on it.


 OBSTACLESTO USE


The hospital’s physicians anticipated that a clinical path for pressure ulcers could be

developed in one week, but it took longer. Implementing the guideline throughout the

hospital took about six months.


Staff have been unclear about how to score the Braden scale for assessing risk factors.

The hospital found that the guideline does not explain how to calculate a total score

by combining the score on the Braden scale with the 24-hour assessment. The

hospital has sought guidance from AHCPR on this subject.


COMPLIANCEAND EVALUATION


The hospital has conducted quarterly skin-integrity quality-improvement studies to

determine improvement in preventing and caring for pressure ulcers. These studies

have examined the extent to which patients’ pressure ulcers have been assessed at

both admission and discharge and have reviewed treatment, including photographs and

measurements of the ulcers, and documentation of improvement or deterioration in

the patients’ condition.


The nursing director has reviewed indicators of patient care and status and. in

instances in which the indicators demonstrate a negative trend, she has reviewed more

extensive information. When clinicians’ care of pressure ulcers has not met the new
standards, the nursing director has provided feedback on a one-to-one basis. She has
also provided feedback to the staff as a group in staff meetings.

The nursing director noted that the incidence and severity of pressure ulcers have
decreased in the hospital. Patients who have entered the hospital with stage one or
two ulcers now leave with none. She also noted the benefit to patients of having both
the hospital and nursing home staffs adhering to the same standards of care.

Craig General Hospital
Post Office BOX326
Vinita, Oklahoma 74301

Telephone:   9182567551
   CASE’ 4         A RUR&   PRIVATQ NON-PROFIT HOSPJ1’AL’S
                   USE OF THE PRESSURE ULCER PREVENTION
                      AND PAIN MANAGEMENT GUIDELINES

  ORGANIZATION PROFILE

 This rural facility, which is run by an independent, private, non-profit organization, has
 fewer than 50 beds and an average of 14 patients. The hospital is staffed by 3
 uhvsicians. a nurse Practitioner, and other nursing staff. The acute-care unit has
 ? r~gister~d nurses,’11 licensed” practical nurses, ~nd 20 nurse aides. The emergency
 room has about 220 visits a month.

 In the past two years, the hospital has established two health clinics from the three
 physician practices that it acquired and has opened a home-health agency.

 Approximately 80 percent of the hospital’s patients are either Medicare or Medicaid
 beneficiaries.

 MOTIVATION FOR USINGTHE GUIDELINES

The hospital administrator introduced the staff to the acute pain management and
pressure ulcer guidelines after he become aware of important inconsistencies in the
treatment of pressure ulcers and potential abuses in the treatment of pain. For
pressure ulcers, physicians had used their own, sometimes “home-spun” and untested,
remedies. For pain management, physicians had sometimes inappropriately prescribed
Schedule-2 narcotics for headaches. At the same time, the hospital’s insurance
company requested that the hospital begin to grade its physicians’ clinical performance
at the time of their annual recredentiaiing.

WAYS OF USING THE GUIDELINES

New hospital guidelines. The administrator obtained copies of the two AHCPR
guidelines and drafted brief summaries (each less than two pages) for the hospital’s
use. The physicians and the hospital’s governing board approved them.

Use with clinicians. The administrator presented the new guidelines at a few staff
meetings. The hospital bought a taped series on pressure ulcer care for the hospital
staff and home-health agency employees. In addition, the physical therapist conducted
in-service training on pressure ulcers for the nurses and nurse assistants. Skills
training on pressure ulcers has been conducted as part of the regular orientation for
new staff.

The hospital’s guidelines called for a new patient-turning chart. This chart lists the
times that each patient’s position must be changed, and it requires a sign-off by the
nurses to indicate that the turning has been accomplished. Patient-turning is also


                                            9

 noted in the patients’ charts. The physical therapist must assess pressure ulcer

 patients three times a week.


 To implement the new pain management guideline, a new emergency room encounter

 form was developed specifically for pain patients. This form informs patients of the

 hospital’s policy with regard to pain medication. Thus far, the form has prompted no

 comments and has resulted in a less frequent use of narcotics. The administrator

 noted that patients hoping to receive narcotics often walk out of the emergency room

 after reviewing the form; they no longer even try to get the medicine.


 OBSTACLESTO USE


The administrator noted initial difficulties in getting all the staff to adhere to the new

policies on a consistent basis. For instance, the emergency room staff sometimes

forgot to use the new pain form with patients. The administrator responded to these

difficulties by reinforcing the importance of the forms in staff meetings and in personai

meetings with staff members. He indicated that tact has been an important

component of his strategy to achieve successful implementation of the new poiicies.


COMPLIANCEAND EVALUATION


As part of the recredentiaIing process, the hospital now reviews physicians’ pain-

management and pressure ulcer management practices against the new guidelines. In

addition, deviations from the new guidelines are discussed in monthly staff meetings.


A a result of the new pressure ulcer guidelines, physicians have relinquished care of

pressure ulcers to the physical therapist.


Sayre Memorial Hospital

Post Office Box 680

Sayre, Oklahoma 73662


Telephone:   4059285541





                                          10

   CASE 5:                  A RURAL HOSPITAL’S
                  USE OF THE PAIN WAGEMENT     GUIDELINE

  ORGANIZATION PROFILE

  This rural hospital has 74 intermediate-care beds and 53 acute-care beds. Some of the
  acute-care beds are swung beds. An independent-living unit that houses 33 seniors is
  also part of the hospital.

 The hospital is staffed by 5 general practitioners, 2 internists, and 2 general surgeons,
 35 acute-care nurses, 10 intermediate-care nurses, and 12 home health/public-health
 nurses.

 MOTIVATIONFOR USING H           GUIDELINE

 The facility has used three AHCPR guidelines--pain management, depression, and
 pressure ulcer prevention. This description focuses on the use of the pain
 management guideline.

 The hospital’s nursing research committee first began to consider practice guidelines a
 few years ago as a way of improving quality of care. A literature review uncovered
 the AHCPR guideline, which was suited to the hospital’s needs.

 WAYS OF USING THE GUIDELINE

Use with clinicians. The hospital has placed primary emphasis on treating pain after
surgery, and, to a lesser extent, on managing pain in cancer patients. The hospital has
fully implemented a patients’ self-assessment pain scale.

OBSTACLESTO USE

The hospital has been educating its physicians to make them more comfortable with
PCA (patient-controlled analgesic) pumps. A young, newly-trained surgeon who is
familiar with the pumps has been working with other physicians. Several physicians
have continued to use Demerol, even though the guideline encourages use of
morphine for better pain control.

The physicians have been receptive to writing patient orders that allow different
approaches to pain control. The director of nursing beiieves that they would be even
more receptive to options if the nurses would ask for them. She noted, as an exarnpk
that the guideline presents a range of dose ieveis and a range of lengths of time for
medication. Many nurses, however, are used to administering injections every 4 hours
and have not considered other ways of controlling pain.
 Staff nurses initially found the guideline ovenvhelming; they did not have time to read
 it all. Each nurse manager, however, has been involved in in-service training.

COMPLIANCEAND EVALUATION

The hospital has assessed the effects of its change in pain-management practice in tsvo
ways. First, the hospital has conducted audits of patient charts to determine how
often pain assessments are conducted, pain is reported, medication is administered;
and the length of time between the administrations of pain medications. The hospital
aims to prevent pain from exceeding 5 on the l-to-10 scale. Second, the hospital has
added a question, “Was your pain adequately controlled,” to the hospital’s patient
satisfaction questionnaire.

Greene County Medic-d Center
1000 West Lincoinway
Jefferson, Iowa 50129

Telephone:   5153862114




                                         12

   CASE 6,               A MID-SIZED TOWN HOSPJT.AL’S
                   USE OF THE PAIN MANAGEMENT GUIDELINE

  ORGANIZATION PROFILE

  This hospital is located in a town of about 30,000 people. The hospital has a capacity
  of 70 beds, but operates only 34 beds. Overall, the hospital has about 200 employees,
  including 80 nurses and 15 physicians on the active medical staff.

 MOTIVATION FOR USING THE GUIDELINE

 The nursing staff conducted an overall review of their protocols for treating different
 conditions, including acute pain. During that time, the nursing director attended a
 seminar, at which she received information about the guideline. She presented this
 material to the nursing staff during an in-service training session. Then, the hospital
 incorporated the guideline into its new policies.

 The hospital has been using the pain management     guideline for 15 months.

 WAYS OF USING IWE GUIDELINE

Use with clinicians. The nursing staff developed their own 5-point pain-assessment
scale, based on the AHCPR guideline’s l-to-10 point scale. They also developed a
second, modified scale by assigning colors to the different pain levels: these colors
range from red, which connotes the most severe pain, to white, which indicates no
pain. The coior scale has been especially useful with pediatric patients.

A new flow-charting system helps staff determine when to offer different medication to
patients. One benefit of this system has been getting physicians to increase use of
patient-controlled analgesic (PCA) pumps. Originally, the PCA pumps were ordy used
post-operatively. They are now routinely used with cesarean-sections, kidney stones
and severe back pain.

Use with patients. Recently, the hospital began to distribute information routinely to
patients on admission. This information is tailored to each patient’s needs. When
appropriate, materials include the consumer pamphlets on the pain guideline.

OBSTA-       TO USE

The director of nursing suggested that physicians have been somewhat resistant to
changing established practice. Despite this resistance, however, physicians have
followed the modifications in clinical procedures. She noted that, while there has been
no formal approval of the modifications by the medical staff, there have been subtle
changes in practices.




                                          13

COMPLIANCEAN13EVALUA’170N


The hospital has not undertaken a formal evaluation of the effects of its guideline use.

Informally, staff nurses have told the nursing director that patients have been more

comfortable, have been less likely to complain about a lack of medication, and have

been more ambulatory. They have reported no added cost as a result of

implementing the guideline.


Fostoria Cmmmmity Hospital

501 Van Buren Street

Fostoria, Ohio 44830


Telephone:   4194357734

  ICASE .1            A RURAIj COUNTT-OWNED HWPITAL’~
                      USE’OF THE IIVCOBITJIWWCE GUIDEI-IIW

  ORGANIZAmON PROFILE

 This county-owned, frontier hospital is located in a town of 9,000, about 120 miles
 away from the next hospital. The hospital has 35 acute-care beds (medical/surgical
 and pediatric), 5 intensive-care beds, and 10 Iong-terrn care beds. The staff consists of
 54 registered nurses, 12 licensed practical nurses, and 7 nurse assistants. In addition,
 the hospital has 12 physicians on staff, including 5 for the emergency room. The
 hospital performs 100 surgeries per week and sees about 1,000 patients in its
 emergency room each month.

 Forty percent of the hospital patients are Medicare beneficiaries; nearly 8 percent are
 Medicaid beneficiaries; and 3 percent receive workman’s compensation.

 MOTIVATION FOR USING TT+JZGUDELINE

 In 1994, the hospital’s chief executive officer of 12 years resigned, along with the
 senior financial staff. The new administrative team has begun to change hospital
 operations, and has added new home-health and cardiac-rehabilitation services. As
 part of these changes, the hospital has adopted the AHCPR guidelines on acute pain
 management, urinary incontinence, pressure ulcers, cataracts, and sicide cell disease.
 This discussion addresses the hospital’s use of the urinary incontinence guideline.

 WAYS OF USKNGTHE GUIDELINE

I’4ewpolicy and procedures. The director of nursing first learned about the
incontinence guideline at a seminar in 1993. At that time, the hospital had no
standards of care for stress incontinence. The director got additional copies of the
guideline and brought them to the clinical practice committee, which was composed of
nurse managers and a few staff nurses. This committee used the guideline to create
its first standards of care for stress incontinence and quickly rewrote the hospital’s
policy and procedures to make them consistent with the guideline.

Use with patients. The hospital does not routinely provide the guideline to patients or
teach them about the recommended care. Physicians must order guideline education
for their patients. When incontinent patients are discharged from the hospital,
however, the discharge planner gives them a copy of the guideline.

The hospital has held educational sessions about urinary incontinence at senior centers
and at health fairs. It distributes copies of the guideline at these sessions and may
present a video it has developed.




                                          15

 Use w“th clinicians. After the clinical practice committee adopted its new policy and
 procedure on incontinence, each nursing unit received ten copies of the clinical
 practice guideline. In addition, each nurse manager took information onthe new
 policy and procedures back from the committee meetings to discuss with staff.

 No training was provided for the nursing staff when the new policy and procedures
 were introduced. Consequently, many nurses failedto comply with them. The nursing
 director found that she ’’had todoa lot ofeducatingof     the nursing staff about stress
 incontinence and bladder training. . . . I had to go back to basic anatomy and
 physiology to educate the nurses.” To determine the focus for this training, she
 solicited from each nurse an assessment of her training needs.

 Ultimately, the hospital’s education department coordinated five in-sexvice sessions on
 incontinence that were mandatoxy for nursing staff. Some additional lectures and
 demonstrations were incorporated into regular staff meetings. Some staff, inciuding
 members of the skin care committee, attended seminars off-site to learn about
 incontinence.

 The hospital’s physicians received information about the new policy and procedures on
 incontinence only once--at a monthly staff meeting. The nursing director explained: “r
 don’t want to bug the doctors.”

The hospital has completely computerized its patient records, including all nursing
notes, physician notes, and care plans. The guideline recommendations have also
been built into the system as reminders to clinicians. When a nurse brings up a
patient’s chart on the computer, for example, the system W-ll display recommended
~reatment. If the nurse chooses not to fofiow it, she must explain her decision in the
chart.

In response to the AHCPR guideline, the hospital has expanded its medical-profile
data-collection for newly admitted patients. Previously, patients were asked only one
question related to incontinence: “Are you incontinent?” Now, more detailed
information is gathered with a 12-question admitting and monitoring instrument. In
addition, the hospital has developed a new bladder-training form for educating
patients and has changed the instructions given to patients at discharge.

OBSTAm      To usE

Uncertainty about how to implement the guideline was an obstacle. Initially, the
nursing director sought information from other hospitals about their plans for
implementing the guideline. She found that “many hospitals haven’t heard of the
AHCPR guidelines.” The hospital had to figure out how to use the guideline by itself.




                                          16

 COMPLIAN= AND EVALUATION


 The computer system has provided easy access to patients’ files for quality-assurance

 reviews. The system has a quality-improvement component that provides patient-care

 and outcome data to nurse managers. This component allowed the hospital to identify

 the initial failure of some of the nursing staff to comply with the new policy and

 procedures on stress incontinence. After the intensive training effort, further review

 reveaied that staff were in compliance in 93 percent of the cases. The hospital is

 planning another compliance review in 1995.


The hospital has not monitored individual clinicians’ compliance with the guideline. It

may do so, however, because the hospital’s human resources department has been

urging hospital Leadership to develop criteria for evaluating clinician performance. To

date, feedback has been provided oniy to groups of clinicians, not to individuals.


The hospital has used a satisfaction questionnaire to assess patients’ perceptions of

their care. In addition, staff have telephoned stress-incontinence patients after their

discharge to make sure that they understand how to manage their incontinence and to

make sure that their home care is going well. The questionnaires have reveaIed that

patients have been satisfied with the new care, especially with the follow-up calIs.


Memorial Hospital of Carbon County

Post Office Box 460

Rawlins, Wyoming 82301


Telephone:   3073242221

  ICASE &      AR%      PROPRIETY   NURSING HOME’S
         USE OF THE PRESSURE ULCER PREVENTION GUIDELINE

 ORGANZZAflON PROFiLE

 This facility has 70 beds, 6 of which are skilled-nursing beds. The facility was acquired
 a few years ago by a national, proprietary firm that owns many nursing homes across
 the country.

 Since the acquisition, a new administrator and a new director of nursing have been
 hired.   The day staff includes two registered nurses, seven certified nursing aides, and
 one restorative aide. The facility has two primary care physicians, each of whom visits
 one day a week.                      �




 About one-half of the facility’s patients are Medicaid beneficiaries;   the other half are
 private pay.

 MOTIVATION FOR USING THE GUIDELINE

The facility has used A.HCPR guidelines for acute pain management, urinary
incontinence, pressure ulcer prevention, and depression. Most of its experience has
been with the pressure ulcer guideline.

A State survey recently found deficiencies in the homes’s management of pressure
ulcers. State law requires nursing homes to turn patients at least once eve~ two hours
and to take other steps to prevent and treat pressure ulcers. Medicare also imposes
requirements.

When the national firm took over the nursing home, it found that many patients had
severe skin problems. Its own skin-care policies, which reflect the AHCPR guideline
on pressure ulcers, are at least as strict as those of the State and Medicare. The
national firm has been working with the local home to c’orrect the problems.

WAYS OF USING THE GUIDELINE

Use with clinicians. The home has posted turning schedules for patients on their
headboards as reminders to nurses and aides. The home has also begun to use the
Briggs patient-encounter forms, which are more detailed than the forms used
previously.

Feedback on pressure ulcer care has been provided during monthly nurse and nursing
aide meetings. In addition, the director of nursing has made rounds of the units and
has provided individual feedback in that context.




                                            18

 Usewith patients. The facdityconductsi ittlepatient   teaching about pressure ulcers.
 The director of nursing explained that most residents are unable to understand
 information about pressure ulcers and that most are unable to control their
 movements--so they cannot act on the information. The home does do a little patient
 teaching with those residents who can both understand the information and act on it.
 The home also does teaching with family members.

 OBSTACLES?0 USE

 Before the home was acquired, relationships among physician, nursing, and
 administrative staff were strained. After the acquisition, the new director of nursing
 held a reception for physicians and has made a concerted effort to win their
 cooperation. This effort seems to have been successful.

When the new firm took over, the facility was “way over budget,” and budget
constraints remain problematic. The nursing director has submitted a budget that will
enable the home to address the pressure ulcer problem in the facility.

COMPLIANCEAND EVALUATION

The home’s quality-assurance program has involved seven annual, in-depth internal
surveys of each department. These reviews, intended to simulate the State suxvey,
address all aspects of care, including skin care.

& part of these reviews, reports on pressure ulcers are prepared for every pressure
ulcer resident every night by the night nurse. These reports are rew”ewed by
consultant nurses. Because the home’s medical records are mostly computerized,
these reviews (and others on weekly, monthly, and quarterly bases) can be conducted
very easily.

The review reports are sent to the regional administrator and the corporate specialist
on a monthly basis. In addition to the seven annual reviews managed by the facility
itself, the parent firm conducts its own annual suxvey.

The nursing home requested that its name not be released in this report.




                                           19

  I C~E   9:           A LARGE NURSING HOME’S
           USE OF THE PRESSURE ULCER PREVENTION                     GUIDELINE
  I~
  ORGANIZATION PROFILE


 This nursing home has about 150 skilled and 240 intermediate beds. Ninety-six

 percent of its patients are covered by Medicaid. Most are elderly, and some are

 mentally handicapped. Most patients are moderately to severely limited in their ability

 to petiorm the activities of daily living.


 MOTIVATIONFOR USING THE GUIDELINE


 In June 1993, State nursing home surveyors cited the home for shortcomings in its

 care of pressure ulcers. The home then conducted its own 3-month study of pressure

 ulcers care and found the incidence, although having remained stable for 5 years, was

 higher than anticipated. The nursing director established goals to reduce both the

 incidence of pressure ulcers and the variation in treatment approaches. The director

 also hoped to reduce costs by reducing the amount of nursing time needed to treat

 pressure ulcers and by eliminating the costs associated with ineffective treatments.


 WAYS OF USING THE GUIDELINE


New policy and procedures. A staff nurse brought the AHCPR pressure ulcer

guideline to the attention of the nursing director. To develop the revised policy and

procedures, he researched books, articles, and product information.      He discussed

pressure ulcer prevention and treatment with nursing and administrative staff in

regularly scheduled meetings. In addition, he consulted with the assistant director of

nursing, the nursing supemisors, the infection control nurse, the quality assurance

nurse, the dietitian, the social services department and the activities department.


The new policy uses a modified Norton Scale with additional nutritional risk factors.

It was introduced to the home on a pilot test basis and has been in full use since early

1994.


Use with clinicians. The nursing director placed a copy of the complete guideline and

the quick reference guide in each nursing unit. He then held a series of three in­

sexvice training sessions for nurses. Administrative staff attended off-site seminars on

pressure uicer treatment. Gaining acceptance of the guideline interventions was

relatively easy once staff were able to agree about causes of pressure ulcers.


The home created new patient-encounter forms to reflect the guideline; modified its

dietary-reporting forms; and designed new activity forms to indicate the times for

repositioning each patient. In addition, it has conducted more nutritional lab-tests

related to pressure ulcers.





                                           20

  To track progress in the care of pressure ulcers, the home developed a new reporting

  system. An incident report is completed whenever a pressure ulcer is identified. This

 report triggers the computer to order an assessment of the pressure ulcer. Within five

 days of the incident report, the shift supervisor must conduct a Norton assessment of

 risk factors for pressure ulcers, review any plan that was in place for care of the

 pressure ulcer, and determine if that plan was appropriate and if it was followed. The

 supervisor must correct any deficiencies in the pian or its implementation.    One week

 later, the supervisor must review the revised plan to assure that it is appropriate and is

 being implemented.


 OBSTACLESTO USE


  Despite education for the home’s residents about the new procedures, some have

  refused to adhere to the interventions. In particular, some younger residents

  (35-45 years old) have viewed the repositioning plan (which entails moving the patients

 in their chairs .eve~ fifteen minutes and mow”ng them in their beds every two hours,

 even when sleeping) as an encroachment on their personal freedom. For these

 residents, the staff have developed care plans that address the residents’

 noncompliance, and they have tried to educate the patients about the importance of

 the repositioning. In addition, the staff are required to document the provision of

 information to the patient about the need for the intervention and the consequences

 of nonintervention, and the patients’ refusal of the intervention.


 COMPLIANCEAND EVALUATION             ‘


The home’s assessments have focused on patient outcomes more than nursing

practices. The home has produced a pressure ulcer report that lists residents’ names,

status, and trends in health status. Initially, these reports were prepared weekly they

are now produced on a monthly basis.


After the first year of guideline use, the incidence of, and the time required to treat,

pressure ulcers decreased: the initial incidence included 27 areas (of which 17 were

stage-one areas); after 1 year, the home reported an incidence of 14 pressure ulcers, 2

of which were not acquired in the home. Anecdotal reports have indicated that stage-

1 ulcers now require very little treatment and that all treatments now require less care

time than before.


In addition to outcome measures, the home has conducted annual evaluations of

nurses’ performance during an episode of patient care. Other observations and

assessments of nursing practice take place throughout the year.


Cumberkmd County Nursing Home

375 Claremont Road

CarlisJe, PA 17013


Telephone:   7172432031





                                           21

      CASE 10                A SKILLED-NURSING HOME’S
                      USE OF THE PRESSURE ULCER PREVENTION
                           AND INCONTINENCE GUTDELINES

    ORGANIZATION PROFILE

    This non-profit facility is affiliated with a denominational social-service organization
    and is located in a medium-sized urban area. The home has 140 beds, including a
    58-bed Alzheimers unit. The home is staffed by nearly 100 nurses and nursing aides,
    and 2 medical directors. Eight physicians visit patients at the facility. In recent
    months, the home has had a significant staff turnover.

    MOTIVATIONFOR USING THE GUIDELINES

    State law stipulates that patients entering nursing homes should not develop pressure
    ulcers in the homes. In the home’s recent State survey, ten patients were found to
    have pressure ulcers; six of them had developed the ulcers after entering the facility.
    As a result, the facility received a citation.

    State law also requires that the homes maintain patients’ continence. IrI the State
    survey, the home also received a citation for failure to properly monitor incontinence
    and for failure to fully implement a bowel and bladder program. In response to both
    citations, the home was required to develop corrective action plans.

   The director of nursing had used the pressure ulcer and incontinence guidelines at the
   nursing facility where he was previously employed. He regarded the guidelines as
   useful tools for quality assurance and thought that they would provide a sound
   foundation for revising this facility’s policies and procedures in these two areas. He
   has found that adhering to the incontinence guideline has resulted in reduced use of
   incontinence products and reduced laundry costs, and that treatments for pressure
   ulcers have been far more expensive than prevention.

   WAYS OF USING THE GUIDELINES

   Revised policy and prowdures. The nursing director worked with two staff members
   to develop new policies and procedures that reflect the guidelines. This rewrite took
   two months and drew on information from sales representatives and professional
  journals. in addition to the AHCPR guidelines. The nursing director indicated that,
  while the new policy and procedures are in place, the home’s implementation of the
  guidelines is at an early stage.

   Use with clinicians. The nursing director distributed copies of the guidelines to each
   nurse manager, charge nurse, unit manager, and support-staff nurse. Copies were
   made available to all others. He discussed the guidelines with his staff “almost page
   for page,” and talked about how best to adapt the guidelines for use in the facility.
The staff decided that some aspects of the guidelines were impractical for use in either the
Alzheimers unit or the entire facility.



                                             22

  Use with patients. The nursing director felt that the patients “wouidn’t understand or care

  about the guidelines.” Nonetheless, he maintains an “open-door” policy for

  residents and their families. In addition, the staff explain the care of pressure ulcers and

  incontinence to all residents and the families of the residents that express interest.


 The home already conducted annual pressure ulcer in-service training (one session is

 required by the State). In addition, two nurse managers were trained in guideline-

 recommended care for pressure ulcers and incontinence. These wo nurse managers then

 taught the other nurses.


 The facility has instituted the use of a new skin-care form that reflects the pressure ulcer

 guideline; this is used on a weekly basis to assess the status of patients’ pressure ulcers.


 OBSTACLES70 USE


 The nursing director had anticipated some resistance to the guideline by clinical staff. The

 home’s internal review process had indicated that physicians were in the habit of ordering

 antibiotics for their patients without examining the wounds and without consulting with the

 nurses. The nursing director wrote to the physicians about the guideline and asked that they

 not be upset if nursing staff questioned the use of antibiotics or other specific treatments

 when these were inconsistent with the new policy and procedures. The physicians have

 realized that they have had to depend on the nursing staff to provide the bulk of patient

 care and have accepted the wound care protocol, which is now part of the routine standing

 orders.


Nurses initially were resistant to the new policy and procedures because they thought too

much work was involved. Some nurses still refuse to comply, but most have come to

appreciate that the new rules can mean less work and better patient outcomes.


COMPLIANCEAND EVALUA’170N


The unit managers have assessed the appropriateness of care plans and the extent to which

clinicians have implemented care plans. As a resuit of the recent State citations for pressure

ulcers and incontinence, the unit managers have focussed their reviews on these two topics.

In addition, the home has had nurse consultants review records on pressure ulcer and

incontinence care on a monthly basis.


The home is planning to have a nurse consultant perform a formal review of the home’s

progress in using the new policy and procedures. Weekly record reviews have already

demonstrated a decrease in the incidence of pressure ulcers among the residents.


Hillside Lutheran Manor

1430 Alamo Avenue

Kalamazoo. Michigan 49006


Telephone:   6163492661




                                              23

    CASE 11:. A SMAILTOWN,  PROPRIETARY NURSING HOME’S
                  USE OF THE INCON’ITNEN CE. GUIDELINE                                         I

  ORGANIZATION PROFILE

  This facility has about 100 Medicaid-certified beds. Recently, it was purchased by a firm
  that owns other nursing homes in the State and in a neighboring State.

  It has a staff of about 90 and has 8 physicians treating residents at the facility.

  MOTIVATION FOR USING THE GUID~

  The faciIity has been using the AHCPR guidelines on acute pain management, urinary
  incontinence, depression, and cataracts, but has the most expedience with the urinary
  incontinence guideline.

 State law requires quarterly and annual reports on the residents’ bowel and bladder
 conditions and on the home’s ability to address bowel and bladder problems among the
 residents.

 A pharmacy that provides training for the home provided a copy of the incontinence
 guideline and suggested that the home implement it. A speaker at one of the training
 sessions warned that State surveyors would look for the guideline as part of their annual
 survey. In fact, the surveyors did make a written note documenting the presence of the
 guideline materials.

 The parent firm, which provided the home whh its quality-assurance        system, also
 recommended use of the guideline.

 WAYS OF USING THE GUIDELINE

Use with clinicians. The nursing director discussed the guideline w“th the nursing staff
during a regularly scheduled staff meeting. The guidelines and the patient guides have been
kept in a central office and have been available for the staff to review.  Handouts were
made available to the staff. There has been no in-service training on urinary incontinence,
although there has been in-service training on pain management.

The home has been modifying its policy and procedures to reflect the urinary incontinence
guideline recommendations.      The home has incorporated the AHCPR guideline’s ten-point
pain scale into its policy and procedures. The director of nursing is not yet completely
satisfied. however, that all the necessary changes have been incorporated.


The home has been changing its incontinence treatments to reflect guideline
recommendations.     It has instituted measures to increase awareness of patients’ fluid intake
and of the patients’ activity schedules. It has also tried to make its incontinence programs
better suited to individual ‘needs. The nursing director reported, however, that it “is ~ifficult



                                               24

 to get staff to follow-up on care with measurements   and documentation      of the residents’
 conditions.

 The home has started using a new incontinence assessment form for new patients and, on a
 quarterly basis, for those patients who stay at the home.

Use with patients. The facility does not distribute guides to the patients.   It conducts all
patient teaching when patients are discharged from the facility.

OBSTACLES‘K) USE

The nursing director noted that the physicians have tended to be highly suspicious of
mandates coming from State government. They have responded more favorably to the
guidelines when the association with State mandates is not made.

Another obstacle noted by the director was insufficient time for her staff to read and
implement all of the guideline recommendations.    She suggested that a pocket guideline
would be more even useful than the quick reference guide.

COMPLIANCEAND EVALUATION

Quality assurance retiews have been, conducted on a monthly basis. Nurses are provided
with feedback on their care of incontinence at least quarterly, during care plan conferences
for incontinent patients.

The nursing home requested that its name not be released in this report.




                                            25

    CASE 12 A LARGE H?MILT’H MAINTENANCE ORGA.NIZAfiOWS
                   USE OF ~“CIATARACZ   GUIDELINE                                         ‘1

  ORGANIZATION PROFILE

 This health maintenance organization (HMO) is part of a nationai, proprietary chain with a
 presence in many States. It seines 8 counties in a large metropolitan area. It has more than
 150,000 members belonging to its HMO and preferred provider organization (PPO)
 programs. About 40 percent of its members are Medicare beneficiaries. Its staff model
 HMO component has 2 physicians and serves about 2,000 members. The rest of the
 organization’s physicians are under contract; they practice either solo, in small groups, or in
 physician organizations.

 MOTIVATIONFOR USING THE GUIDELINE

 Because of its large Medicare membership, the HMO has had a lot of interaction with the
 Medicare Peer Review Organization (PRO). In one recent instance, a patient complained to
 the PRO that he was unfairly denied cataract surgery. The PRO found some merit in the
 patient’s complaint and recommended that the HMO adhere to the AHCPR guideline on
 cataracts as a means of settling the dispute. The HMO had its own committee review the
 guideline. Ultimately, this committee ;Iso recommended adherence to the guideline, and the
 company has adopted it as a new policy. The guideline represents a slight change in the
 protocol previously used by the HMO.

 WAYS OF USING THE GUIDIZLINIZ

Use with clinicians. The HMO sent notification of its change in policy and the new criteria
for determining the need for cataract surgery to all of the primaxy care physicians and
ophthalmologists contracted and credentialed with the company. The organization did not
distribute the AHCPR guideline per se because it uses a standardized format for
communicating standards of care to its providers.

Clinicians received no education or skills training on the guideline. A physician ~th the
HMO explained that, because the change in policy was slight--and not a matter of new
diagnosis or treatment techniques--no education or skills training was necessary. He feels
that the HMO’s physicians have accepted the new standard.

Use with patients. As part of the HMO’s agreement with the PRO, the HMO plans to
publish an article for patients about cataract treatment and its use of the AHCPR guideline.
The article will also invite patients to call the HMO for additional information.


COMPLIANCEAND EVALUATION. The HMO is pIanning a follow-up audit of clinician
compliance with the guideline’s standards of care: The ~opulation for this study will be alI
patients aged 65 or older who underwent cataract surgery during a 6-month period. In


                                             26

addition, the HMO is considering a cooperative project with the PRO in which records

would be chosen at random for a detailed review of compliance with the new cataract

surgery standard. This proposed project would use encounter or claims data as a basis for

the assessment of clinician performance.


Humana Medical Pl~ Inc.

5401 West Kennedy Boulevard, Suite 1031

Tampa, Florida 33609


Telephone:   8132876260





                                           27

